<html>
<title> - ASSESSING THE CUMULATIVE IMPACT OF REGULATION ON U.S. MANUFACTURERS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
  ASSESSING THE CUMULATIVE IMPACT OF REGULATION ON U.S. MANUFACTURERS

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON REGULATORY AFFAIRS,
               STIMULUS OVERSIGHT AND GOVERNMENT SPENDING

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 9, 2011

                               __________

                           Serial No. 112-41

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform


                  U.S. GOVERNMENT PRINTING OFFICE
68-363                   WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="197e6976597a6c6a6d717c7569377a767437">[email&#160;protected]</a>  


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

 Subcommittee on Regulatory Affairs, Stimulus Oversight and Government 
                                Spending

                       JIM JORDAN, Ohio, Chairman
ANN MARIE BUERKLE, New York, Vice    DENNIS J. KUCINICH, Ohio, Ranking 
    Chairwoman                           Minority Member
CONNIE MACK, Florida                 JIM COOPER, Tennessee
RAUL R. LABRADOR, Idaho              JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          BRUCE L. BRALEY, Iowa
FRANK C. GUINTA, New Hampshire
MIKE KELLY, Pennsylvania


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 9, 2011....................................     1
Statement of:
    Harman, Donna A., CEO, American Forest and Paper Association; 
      Aris Papadopoulos, CEO and chairman, Portland Cement 
      Association, Titan America LLC; Michael P. Walls, vice 
      president, regulatory and technical affairs, American 
      Chemistry Council; Michael Kamnikar, senior vice president 
      of marketing and business development, incoming president, 
      Forging Industry Association, Ellwood Group; Bernard 
      ``Terry'' Schimmel, vice president, technical services, 
      Boral Bricks, Inc.; and David C. Foerter, executive 
      director, Institute of Clean Air Companies.................    30
        Foerter, David C.........................................    81
        Harman, Donna A..........................................    30
        Kamnikar, Michael........................................    64
        Papadopoulos, Aris.......................................    39
        Schimmel, Bernard ``Terry''..............................    74
        Walls, Michael P.........................................    45
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    12
    Foerter, David C., executive director, Institute of Clean Air 
      Companies, prepared statement of...........................    83
    Harman, Donna A., CEO, American Forest and Paper Association, 
      prepared statement of......................................    33
    Jordan, Hon. Jim, a Representative in Congress from the State 
      of Ohio:
        Prepared statement of....................................     4
        Various prepared statements..............................    15
    Kamnikar, Michael, senior vice president of marketing and 
      business development, incoming president, Forging Industry 
      Association, Ellwood Group, prepared statement of..........    66
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio:
        Article dated August 9, 2010.............................    94
        Pulp & Paperworkers' Resource Council map................    90
    Papadopoulos, Aris, CEO and chairman, Portland Cement 
      Association, Titan America LLC, prepared statement of......    41
    Schimmel, Bernard ``Terry'', vice president, technical 
      services, Boral Bricks, Inc., prepared statement of........    76
    Walls, Michael P., vice president, regulatory and technical 
      affairs, American Chemistry Council, prepared statement of.    47


  ASSESSING THE CUMULATIVE IMPACT OF REGULATION ON U.S. MANUFACTURERS

                              ----------                              


                        WEDNESDAY, MARCH 9, 2011

                  House of Representatives,
      Subcommittee on Regulatory Affairs, Stimulus 
                 Oversight and Government Spending,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:35 a.m., in 
room 2154, Rayburn House Office Building, Hon. Jim Jordan 
(chairman of the subcommittee) presiding.
    Present: Representatives Jordan, Buerkle, Labrador, Guinta, 
Kelly, Issa (ex officio), Kucinich, and Cummings (ex officio).
    Staff present: Molly Boyl, parliamentarian; Joseph A. 
Brazauskas, counsel; Kate Dunbar, staff assistant; Adam P. 
Fromm, director of Member services and committee operations; 
Ryan M. Hambleton, professional staff member; Frederick Hill, 
director of communications and senior policy advisor; 
Christopher Hixon, deputy chief counsel, oversight; Justin 
LoFranco, press assistant; Mark D. Marin, senior professional 
staff member; Kristina M. Moore, senior counsel; Krista Boyd 
and Brian Quinn, minority counsels; Cecelia Thomas, minority 
counsel/deputy clerk; and Alex Wolf, minority professional 
staff member.
    Mr. Jordan. The committee will come to order.
    We exist to secure two fundamental principles: First, 
Americans have a right to know that the money Washington takes 
from them is well-spent; and, second, Americans deserve an 
efficient, effective government that works for them. Our duty 
on the Oversight and Government Reform Committee is to protect 
these rights.
    Our responsibility is to hold government accountable to 
taxpayers because taxpayers have a right to know what they get 
from their government. We will work tirelessly in this 
partnership with citizen watchdogs to deliver the facts to the 
American people, to bring genuine reform to the Federal 
bureaucracy. This is the mission of the Oversight and 
Government Reform committee.
    I want to thank all our witnesses for being here with us 
this day. I will do a quick opening statement, and then my 
friend and colleague and ranking member, Mr. Kucinich, will 
have an opening statement, and then we will get right to your 
testimony.
    We do have the Australian Prime Minister on the floor at 
11, so we want to get through as much as we can prior to 
adjourning for that.
    Thank you all for coming today.
    Last month, the Oversight and Government Reform Committee 
held a hearing entitled, ``Regulatory Impediments to Job 
Creation.'' This hearing was the result of a committee effort 
to learn about which regulations were standing in the way of 
job creation. We heard from many employers and industries from 
across the Nation.
    As chairman of this subcommittee, I am especially looking 
forward to continue this work, examining the effects of 
regulations on American job creators. This subcommittee has 
jurisdiction over the regulatory process, and we recognize that 
job creators do not live in a world where they are only subject 
to one regulation issued by one agency. In the real world, 
outside the Beltway, job creators are subject to numerous 
regulations and compliance obligations enforced by a virtual 
alphabet soup of Federal agencies. As we attempt to get our 
economy going again and get people back to work, it is crucial 
that we all start to think about the numerous burdens and 
mandates that we are putting on the private sector.
    On January 21, 2011, President Obama issued Executive Order 
13563 directing agencies to, ``take into account the cost of 
cumulative regulations.'' I applaud this commonsense plan. 
Today's hearing will examine whether the government has begun 
to follow this directive and what Congress can do to help 
implement it.
    I believe we should start by first looking at the bedrock 
of our economy, the manufacturing sector. U.S. manufacturing is 
the industry hit the hardest by regulatory costs. With per-firm 
costs at approximately $688,000, half-a-million dollars greater 
than the national average cost for other industries. Moreover, 
small manufacturers bear a proportionately larger regulatory 
burden, with an estimated cost of $26,000 per employee--more 
than double the burden that is faced by larger manufacturers.
    While the Oversight Committee was collecting information 
from job creators about the regulatory burdens they faced, it 
quickly became obvious which agency was the number-one concern 
to them: the Environmental Protection Agency. This hearing will 
provide Congress with an opportunity to understand how all the 
regulations in the pipeline at EPA, in addition to the ones 
already in existence, impact a critically important part of our 
economy.
    I would like to take a moment to say how disappointed I am 
that the EPA chose not to send a witness to this hearing. The 
reason given was that their witness would not be scheduled to 
testify alone on the first panel.
    I think this subcommittee has been very fair in offering to 
seat their witness alone on a second panel that would be 
guaranteed to start at 10:30 sharp this morning. However, that 
offer was rejected. It is too bad that the EPA not only refuses 
to sit at a witness table with some of the very people that 
they are regulating, but also refused to wait and listen to the 
rest of the witnesses' testimony.
    Also, in contract to the EPA, our other witnesses here 
today have agreed to take time out of their schedules and 
provide their testimony to us without a list of demands. EPA's 
behavior is the type that gives people throughout the country 
the impression that their government is aloof and not listening 
to them.
    Despite EPA's lack of participation, I still think we can 
have a productive and informative hearing. The panel we have 
here today can speak very well to the cumulative impact of 
government regulations. This information, straight from the 
people affected, is invaluable.
    In fact, the committee even has a Web site, 
americanjobcreators.com, where any American can log in and tell 
us their story. We are listening, and we want to hear what you 
have to say.
    With that, I would yield 5 minutes to the ranking member, 
Mr. Kucinich.
    [The prepared statement of Hon. Jim Jordan follows:]

    [GRAPHIC] [TIFF OMITTED] T8363.001
    
    [GRAPHIC] [TIFF OMITTED] T8363.002
    
    [GRAPHIC] [TIFF OMITTED] T8363.003
    
    [GRAPHIC] [TIFF OMITTED] T8363.004
    
    Mr. Kucinich. I thank you very much, Mr. Chairman.
    And the chair and I have had discussions about the 
witnesses, and I am hopeful that in the future we will be able 
to work out our differences with a commonsense approach.
    I want to state for the record, there is a longstanding 
precedent in Congress of putting administration witnesses first 
on their own panel. And there have been exceptions, but the 
committee has allowed witnesses from Republican and Democratic 
administrations to testify first on their own panel.
    Now, I certainly respect the prerogative of this chair, and 
I respect the prerogative of the chair of the full committee. 
And we don't need to be at loggerheads about things like the 
sequence of witnesses. We have things that are much more 
serious to get into here. And I have every confidence, given 
our relationship, Mr. Chairman, that we will work it out down 
the line.
    I want to thank you for holding the hearing. I fully----
    Mr. Jordan. Would the gentleman yield?
    Mr. Kucinich. Of course I would.
    Mr. Jordan. Just for 10 seconds. The gentleman is right; 
the precedence has been for the administration to have the 
first panel witness. We thought, in light of the economic 
situation, in light of the concern we all have, regardless of 
party, about the regulatory burden, that it made sense to hear 
from the people who faced these regulations and then have the 
administration have their complete panel to themselves, talk, 
and then follow back up with the same people.
    We thought that would be a better way for Members of 
Congress and the public to get information, and that is why we 
chose the approach we did. As I indicated, unfortunately, the 
EPA decided not to send a witness.
    Mr. Kucinich. Well, again, Mr. Chairman, you know, I think 
that if you and I had had an opportunity prior to this moment 
right here to work this out, I think we probably could have 
found a way to get the EPA participating.
    I certainly think that it is a good idea for them to hear 
witnesses testify, particularly those who are subject to the 
EPA regulations. It makes sense. It can actually help you be a 
better regulator, to hear what people have to say.
    I fully support having a discussion about the impact of 
regulations on industry, and I want to know if there are 
regulations that are unnecessarily burdensome on this country's 
manufacturers.
    I also know that regulations are creating jobs and the 
regulations are saving lives. And, in order to have a truly 
productive conversation about regulations that yield real 
results, we cannot focus solely on cost. The cost must be 
weighed against benefits.
    This year, the Office of Management and Budget estimated 
that, from 2000 to 2010, Federal regulations resulted in a 
financial benefit of $136 billion to $651 billion, with a cost 
of $44 billion to $62 billion. That is a 2:1 benefit-to-cost 
ratio using OMB's lowest estimations and greater than a 10:1 
benefit-to-cost ratio based on OMB's highest estimations.
    EPA's air pollution rules alone account for 60 to 85 
percent of these benefits. That means that in a 10-year period 
from 2000 to 2010, during both a Democrat and Republican White 
House, EPA regulations have resulted in anywhere from $81.7 
billion in benefits to a remarkable $550.4 billion in benefits.
    These kinds of regulations also have a positive effect on 
job creation. A 2008 study found that environment protection as 
an industry generated $300 billion in sales in 2003 and 
provided 5 million jobs.
    Many of the regulations identified as burdensome by today's 
witnesses fall under the umbrella of the Clean Air Act. I think 
that we are going to hear a lot today about the cost of the 
Clean Air Act, so I want to take a minute to talk about its 
benefits.
    EPA's most recent estimate of the total financial benefit 
of the Clean Air Act is $1.3 trillion. This figure dwarfs the 
estimated cost at $53 billion. That is a ratio of about 26:1. 
By 2020, the financial benefit of the Clean Air Act is expected 
to skyrocket to an astounding $2 trillion, while the proportion 
of costs increases marginally to $65 billion, a ratio of 32:1.
    In this same report, the EPA went on to say, ``It is 
extremely unlikely the cost of the 1990 Clean Air Act 
amendments programs would exceed their benefits, under any 
reasonable combination of alternative assumptions of methods, 
even if one were to adopt the extreme assumption that air 
pollution no effect on premature mortality or that avoiding 
such effects has no value.''
    In 2003 alone, EPA estimates that the Clean Air Act 
standards on only particulate matter and ozone pollution have 
prevented 160,000 premature deaths, 130,000 cases of acute 
myocardial infarction, 1.7 million cases of asthma 
exacerbation, 86,000 hospital admissions, 86,000 emergency-room 
visits, 3.2 million lost schooldays, and 13 million lost 
workdays.
    We don't want to emulate what is happening in India and 
China. We don't want to turn the clock back to the 19th 
century, when the absence of regulation led to pollution of our 
air and water, exploitation of our natural resources, and 
destruction of our environment.
    So, Mr. Chairman, as we sit here today and talk about the 
impact of regulations, let's be careful not to forget that 
premature deaths, heart attack, asthma, lost schooldays, and 
lost workdays are also results that we want to avoid.
    I thank the chair.
    Mr. Jordan. I thank the gentleman.
    Our ranking member of the full committee, the distinguished 
gentleman from Maryland, would like to make an opening 
statement.
    Mr. Cummings. I will be very brief. Thank you very much Mr, 
Chairman, and thank you for your courtesy.
    Chairman Jordan, Ranking Member Kucinich, this is a very 
important hearing.
    At last month's full committee hearing on the impact of 
regulations on job creation, I said in my opening remarks that 
effective regulatory review should include several elements: an 
examination of the costs and benefits, conclusions based on 
solid data, and input from a variety of sources.
    I support a comprehensive review of the impact of 
regulations, but I stand firm in my belief that any assessment 
of cumulative impact must take into account the benefits of 
those regulations and not just the costs. We are better than 
that.
    I am also mindful that there are costs associated with the 
lack of regulation, as well. The 2008 financial collapse and 
subsequent loss of 8 million jobs taught us that much. As a 
matter of fact, just held a hearing in my district--this 
committee held a hearing in my district yesterday, where we 
have seen a loss in Baltimore city of $1\1/2\ billion with 
regard to real estate and foreclosures because of this 
financial collapse, lack of regulation.
    At a time when creating jobs is our top priority here in 
Congress, I believe we must consider that regulation has the 
potential to actually create jobs, as Mr. Kucinich just said. A 
February 2011 report issued by Ceres and the Political Economy 
Research Institute concluded that EPA's Clean Air Transport and 
the boiler MACT rules will strengthen our economy and grow 
jobs. Specifically, the report estimates that, over the next 5 
years, 1\1/2\ million jobs will be both directly and indirectly 
created by these two rules. This includes jobs in steel 
manufacturing, catalyst system manufacturing, and control 
system manufacturing. This is in addition to the substantial 
public health benefits from cleaner air. EPA estimates that the 
benefits of the Clean Air Act are projected to exceed the costs 
by a factor of more than 30 to 1 by 2020.
    I am reminded, when I talk about this, of when I worked as 
a high school student at Bethlehem Steel. And when you would go 
on the yard of Bethlehem Steel, if you blew your nose, what 
came out was red or black after being there for an hour. Thank 
God some OSHA rules have come about where you now have to wear 
masks. Because people want to go to work, they want jobs, but 
they want to come home safely to their families and not be 
shipped to them in a coffin.
    In November 2010, the World Resources Institute concluded 
that EPA's greenhouse gas rules will drive innovation and lead 
to energy savings for manufacturers. The institute found that 
for refineries, glass manufacturers, and others, investments in 
efficiency technologies would offset most, if not all, current 
environmental costs combined.
    In December 2010, several business organizations 
representing 60,000 firms across the country wrote to President 
Obama and Members of Congress, urging us to support the EPA and 
the Clean Air Act.
    In addition, in a December Wall Street Journal letter to 
the editor titled, ``We're OK with the EPA's New Air Quality 
Regulations,'' eight leading utility companies explained that 
EPA air quality regulations carry economic benefits, including 
job creation.
    Finally, Mr. Chairman, I continue to hope that we will 
conduct responsible evaluations of regulations consistent with 
the President's recent Executive order. However, any discussion 
on the cumulative effect of regulation must include the 
positive impact regulation has on our economy and on our 
families and on our constituents and the benefit it holds for 
individuals and businesses alike.
    I thank all of our panelists for being here today, and I 
look forward to hearing from you on how we can improve 
regulations to make America safer.
    And I wanted to be very clear, Mr. Chairman, on this side 
of aisle, we are concerned about a balanced approach to this. 
We realize that there are regulations that are probably 
outdated. But we must be very, very careful, because 
regulations were, after all, put forth to make sure that the 
American people's health, safety, and welfare are protected. 
And that includes every single person in these great United 
States of America.
    Again, Mr. Chairman, I thank you for your courtesy, and I 
yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T8363.005

[GRAPHIC] [TIFF OMITTED] T8363.006

    Mr. Jordan. I thank the gentleman.
    Members have 7 days to submit opening statements and 
extraneous material for the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8363.007
    
    [GRAPHIC] [TIFF OMITTED] T8363.008
    
    [GRAPHIC] [TIFF OMITTED] T8363.009
    
    [GRAPHIC] [TIFF OMITTED] T8363.010
    
    [GRAPHIC] [TIFF OMITTED] T8363.011
    
    [GRAPHIC] [TIFF OMITTED] T8363.012
    
    [GRAPHIC] [TIFF OMITTED] T8363.013
    
    [GRAPHIC] [TIFF OMITTED] T8363.014
    
    [GRAPHIC] [TIFF OMITTED] T8363.015
    
    [GRAPHIC] [TIFF OMITTED] T8363.016
    
    [GRAPHIC] [TIFF OMITTED] T8363.017
    
    [GRAPHIC] [TIFF OMITTED] T8363.018
    
    [GRAPHIC] [TIFF OMITTED] T8363.019
    
    [GRAPHIC] [TIFF OMITTED] T8363.020
    
    [GRAPHIC] [TIFF OMITTED] T8363.021
    
    Mr. Jordan. We welcome our panel of witnesses today.
    First, we have Ms. Donna Harman. She is CEO of the American 
Forest and Paper Association.
    Mr. Aris Papadopoulos--close, right? That is one of those 
fun names to say. It is like ``Sheboygan,'' like, you know, one 
of those fun names to say. He is the CEO and chairman of 
Portland Cement Association. We appreciate you being with us 
today.
    Mr. Michael Walls is the vice president of regulatory and 
technical affairs for the American Chemistry Council.
    Mr. Michael Kamnikar is senior vice president of marketing 
and business development and incoming president of the Forging 
Industry Association.
    And Mr. Terry Schimmel is vice president of technical 
services at Boral Bricks, Inc.
    And David Foerter is the executive director of the 
Institute of Clean Air Companies.
    It is the practice of the committee to swear all witnesses 
in, so if you would please rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Jordan. Let the record reflect that all the witnesses 
answered in the affirmative.
    Thank you. And you can be seated.
    In order to allow time for discussion, we would like for 
you to limit your comments to 5 minutes. There should be some 
lights somewhere that you can see.
    Do we have those?
    I don't know where our lighting system is. I will give you 
a little tap or something.
    Oh, you have it in front of you. We can't see it because 
your names are there. OK, great, so you know when it gets 
close. It is sort of like the traffic signals we are all used 
to.
    So now let's recognize Ms. Harman for 5 minutes.

 STATEMENTS OF DONNA A. HARMAN, CEO, AMERICAN FOREST AND PAPER 
  ASSOCIATION; ARIS PAPADOPOULOS, CEO AND CHAIRMAN, PORTLAND 
 CEMENT ASSOCIATION, TITAN AMERICA LLC; MICHAEL P. WALLS, VICE 
PRESIDENT, REGULATORY AND TECHNICAL AFFAIRS, AMERICAN CHEMISTRY 
 COUNCIL; MICHAEL KAMNIKAR, SENIOR VICE PRESIDENT OF MARKETING 
AND BUSINESS DEVELOPMENT, INCOMING PRESIDENT, FORGING INDUSTRY 
 ASSOCIATION, ELLWOOD GROUP; BERNARD ``TERRY'' SCHIMMEL, VICE 
PRESIDENT, TECHNICAL SERVICES, BORAL BRICKS, INC.; AND DAVID C. 
 FOERTER, EXECUTIVE DIRECTOR, INSTITUTE OF CLEAN AIR COMPANIES

                  STATEMENT OF DONNA A. HARMAN

    Ms. Harman. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here with you and with the other members of 
the subcommittee. My name is Donna Harman. I am the president 
and CEO of the American Forest and Paper Association. And the 
issue that you have brought before us today, to look at the 
challenges presented by the cumulative impact of the EPA 
regulations on manufacturers, is, in our view, very timely and 
extremely important.
    Many of the laws and, now, regulations that come from them 
were enacted decades ago, and they have contributed to 
significant improvements in air and water quality. The forest-
products manufacturing supply chain is heavily regulated, and 
we will continue to adapt to well-reasoned regulations that are 
both affordable and achievable.
    But we can not respond to regulations in a vacuum. 
Businesses in our sector must consider the global competitive 
environment in which they operate. They must compete for 
capital globally, and they need to have the time to build new 
regulatory requirements into their capital planning process. 
They must also be able to rely on government, so once a 
regulation is in place, it will not be selectively enforced or 
changed within a short timeframe.
    Paper and wood products manufacturers are facing over 20 
major regulations from EPA's Clean Air Act program alone. The 
pace and volume of regulation is not sustainable for the 
Agency, the States, or the companies that are required to meet 
them or the Congress whose obligation it is to provide 
oversight.
    I would like to call your attention to the chart that was 
included with my testimony and on the screen that gives you 
just an idea of the regulations that are currently under the 
Clean Air Act, in the pipeline, that affect the forest-products 
industry.
    Mr. Kucinich. Excuse me, Mr. Chairman. Do you have a copy 
of that so we can look at it?
    Mr. Jordan. We will provide copies for all Members. Thank 
you.
    Ms. Harman. And I believe it was attached to my testimony, 
as well.
    Mr. Jordan. OK.
    Ms. Harman. The forest-products industry, like many other 
manufacturing industries, has been hit hard by the economic 
crisis. Since 2006, when the housing and economic crisis began, 
the forest-products industry has lost 31 percent of its work 
force, nearly 400,000 high-paying jobs, largely in small, rural 
communities that can barely afford to lose them.
    The closure of a mill in a rural community, in a small 
town, has an enormous ripple effect when that mill is the 
largest employer and a major contributor to the local tax base 
and to the community programs. In many cases, without these 
facilities, these communities die.
    Government regulations that are not cost-effective can 
exacerbate what is already a bad situation. AF&PA recently 
commissioned a study by Fischer International to assess the 
jobs impact of the cumulative burden of the largest pending and 
expected EPA regulations. The study concluded that several 
upcoming Clean Air rules would cause 62 mills to close and 
result in a direct loss of nearly 27,000 paper-industry jobs. 
If supplier jobs and jobs associated with the re-spending of 
worker incomes are included, the total job losses would reach 
nearly 114,000.
    These results did not even include the boiler MACT rule, 
which I would like to talk about now.
    Boiler MACT is just one of many rules adding to the 
cumulative burden. EPA's boiler MACT rule will require more 
than 90 percent of boilers to make significant changes. And 
these changes are on top of the changes and the capital they 
previously invested during the past decade to comply with the 
2004 boiler MACT rule. For the forest-products industry alone, 
our initial estimate of the capital cost of the final rule is 
about $3 billion and $11 billion for all manufacturing, plus 
the operating costs.
    Unfortunately, as our technical experts delve deeper, their 
concerns about achievability and cost have grown. For example, 
the carbon monoxide limits for some biomass boilers actually 
became more stringent. Burning wet biomass will be particularly 
challenging even with the combustion improvements EPA assumes 
necessary to meet the more stringent requirements.
    While Congress authorized EPA to adopt a health-based 
approach, they determined that they would not do so in the rule 
that was just recently released. We believe, if they were to do 
that, that we could reduce the capital costs required to meet 
this rule without any impact on human health.
    I want to just, in my remaining time, mention two other 
rules: the Pulp and Paper MACT and residual-risk rules.
    The Pulp and Paper MACT rule is intended to be a one-time 
rule. EPA concluded that rule about 10 years ago. We have 
implemented that rule. We have made significant changes and 
gotten a lot of environmental improvement as a result of it. 
Now they are talking about a redo. That is an example of the 
Agency going further than is necessary, overregulating and 
overcontrolling when it is not necessary to protect health.
    The last rule I would like to mention briefly is the 
National Ambient Air Quality Standards. I think others will 
also mention this rule. This rule is another rule that, 
collectively, will cost the forest-products industry alone over 
$8 billion.
    Your look at these and other rules today is critically 
important because jobs are at stake. Investment in making our 
facilities internationally competitive and securing their 
future is really what is at stake.
    So thank you for taking the time to delve into and 
understand these issues. And I would love to answer your 
questions as followup after the other witnesses.
    [The prepared statement of Ms. Harman follows:]

    [GRAPHIC] [TIFF OMITTED] T8363.022
    
    [GRAPHIC] [TIFF OMITTED] T8363.023
    
    [GRAPHIC] [TIFF OMITTED] T8363.024
    
    [GRAPHIC] [TIFF OMITTED] T8363.025
    
    [GRAPHIC] [TIFF OMITTED] T8363.026
    
    [GRAPHIC] [TIFF OMITTED] T8363.027
    
    Mr. Jordan. Sure. Thank you, Ms. Harman.
    Mr. Papadopoulos.

                 STATEMENT OF ARIS PAPADOPOULOS

    Mr. Papadopoulos. Mr. Chairman and congressional committee 
members, my name is Aris Papadopoulos. I serve as CEO of Titan 
America, a heavy construction material producer in eight 
States, employing over 2,000 Americans. I presently chair the 
Portland Cement Association that represents 97 percent of U.S. 
cement capacity, with nearly 100 manufacturing plants in 36 
States and distribution in all 50.
    Cement is to concrete what nails are to wood. Without it, 
our bridges, roads, dams, schools, and hospitals would be 
rubbles of rock. At $6\1/2\ billion combined revenue, we are a 
relatively small industry, but without us the entire trillion-
dollar construction economy would come to a halt. Without 
cement, our already-deteriorating infrastructure would degrade 
to unsafe levels, along with our communities and quality of 
life.
    The great recession has hit our industry very hard. Cement 
demand has dropped in half. Profitability has been wiped out. 
Yet we sought neither handouts nor bailouts. We cut costs, 
which, sadly, included more than 4,000 jobs. What remain are 
15,000 well-paying jobs with average compensation of $75,000 
and a high representation of minorities. But today these jobs 
are in jeopardy, and the spillover could affect millions 
employed in the construction sector.
    Not only did the Stimulus Act fail to raise construction 
demand, but, at our weakest moment, this government's EPA, 
whose budget, by the way, was enriched 33 percent through the 
same act, launched an unprecedented regulatory attack against 
our industry.
    This is not a static but a dynamic industry. In its 
century-long history, cement manufacturers have demonstrated 
their commitment to continuous improvement in environment 
stewardship. In the decade prior to this recession, it invested 
tens of billions of dollars in modernizing and expanding 
facilities with state-of-the-art technology that were win-win 
for both economics and environment. Today our industry is one 
of the largest recyclers of industrial and urban byproducts 
that would otherwise be landfilled.
    Yet the current EPA has switched from win-win to win-lose. 
There should be no doubt that win-lose will lead to lose-lose. 
Other strategic materials, such as rare earths, once a vital 
U.S. industry but now controlled by China, are living proof 
that overregulation leads to offshoring.
    This is not a choice between environment and economy, 
because the two go hand-in-hand, and when economic vitality 
suffers, so does environmental sustainability. Without 
strategic materials like cement, economic vitality cannot be 
sustained.
    Without time to get technical, I would like to note that 
for one compound, mercury, EPA imposed standards 5 to 12 times 
stricter than those in Germany. The irony is that this rule 
won't even help the environment, as 80 percent of the mercury 
found in the United States originates from offshore. EPA has 
justified these rules with incomprehensible computer models, 
but they lack any empirical proof or field evidence.
    Our economic study of EPA's rules concludes that two rules 
alone impose a compliance burden of $5.4 billion in the next 4 
years, equal to 85 percent of this industry's total annual 
sales. They also increase production costs by 20 percent. One 
rule, NESHAP, will force almost 20 percent of U.S. plants to 
shutdown in 3 years. The industry could lose 25 percent, or an 
additional 4,000 jobs, by 2015. Assuming economic recovery 
through 2025, this reduced domestic cement capacity will force 
the United States to depend on foreign imports for 56 percent 
of its needs.
    We conclude that, in totality, these rules make investing 
in the United States unattractive compared to overseas. In the 
end, neither the economy nor the environment win: American jobs 
and investment are lost; the same emittants reach Americans in 
even greater quantities from offshore; dependence on foreign 
cement follows the road of dependence on foreign energy. And 
with cement more cumbersome to import than oil, shortages and 
price volatility will become more common. This could hurt the 
entire construction economy, with impacts on infrastructure, 
housing, commerce, and jobs.
    This industry is committed to its longstanding spirit and 
practice of continuous improvement and environmental 
stewardship, but we need a government that we can work with in 
a win-win, constructive manner.
    Unfortunately, we feel that industries like ours are 
getting caught in the crossfire of the major assault against 
coal by global-warming forces in this country. Immediate action 
is needed to rescind these regulations when we are in the midst 
of one of the worst economic crises before they prolong or 
worsen the harm, and place a near-term moratorium on more 
rules. Congress needs to step up and take back legislative 
ownership if we are to revive private-sector confidence that 
will retain and create good jobs for Americans and restore 
economic prosperity.
    We also need Congress to undertake broader legislative 
reform that will return EPA to its original purpose, strengthen 
standards of justification for rules, consider cross-border 
economic and environmental impacts, approach industry with win-
win rather than win-lose frameworks, objectively inform rather 
than panic the public, and reduce wasteful environmental 
litigation.
    Thank you for this opportunity to testify. I would be happy 
to answer any of your questions.
    [The prepared statement of Mr. Papadopoulos follows:]

    [GRAPHIC] [TIFF OMITTED] T8363.028
    
    [GRAPHIC] [TIFF OMITTED] T8363.029
    
    [GRAPHIC] [TIFF OMITTED] T8363.030
    
    [GRAPHIC] [TIFF OMITTED] T8363.031
    
    Mr. Jordan. Thank you.
    Mr. Walls.

                 STATEMENT OF MICHAEL P. WALLS

    Mr. Walls. Thank you, Mr. Chairman. Good morning to you and 
members of the subcommittee. I am Mike Walls, the vice 
president of regulatory and technical affairs at the American 
Chemistry Council.
    Earlier this year, both the leadership of this subcommittee 
and President Obama called for an examination of existing rules 
to ensure that they don't create an undue burden on American 
businesses. We strongly support that effort.
    We believe there is an appropriate role for regulation in 
encouraging behavior. Efficient and effective regulation can 
help markets function. Regulation can help address important 
public-policy objectives. But regulations promulgated without 
an analysis of the impact on the economy and the impact on 
jobs, including how multiple regulations compound those 
impacts, can have quite the opposite effect.
    If manufacturing is to make a significant contribution to 
economic recovery, including the creation and maintenance of 
well-paying jobs, it is imperative that we have an accurate 
understanding of the impact of these proposed regulations. The 
full regulatory burden on any particular sector can only be 
known if that cumulative impact is assessed.
    Now, the lack of cumulative-impact assessments is a 
fundamental shortcoming in the way government agencies develop 
and evaluate proposed rules. That shortcoming creates 
regulatory tunnel vision. It puts innovation, investment, and 
jobs at risk.
    Now, ACC and its members have a keen interest in getting 
regulations right. Our industry is arguably America's most 
highly regulated industry. There is no aspect of chemical 
manufacture, distribution, user disposal that isn't regulated 
by one or more Federal, State, or local requirements.
    Now, while we understand that substantial benefits can flow 
from regulation, our industry also understands that very 
regulation can translate to fewer American jobs, a less 
competitive economic position, and reduced innovative capacity.
    Now, a quick example is useful. Our industry stands right 
now on the cusp of the most significant energy and feedstock 
development in a generation. The market changes that are 
occurring as a result of the vast shale gas formations around 
the country have the potential to put our industry and our 
economy in a significantly improved global competitive 
position. The game-changing nature of shale gas can bring 
billions in new capital investment, thousands of new jobs, and 
more than $100 billion in additional economic output and 
Federal, State, and local tax revenue--just flowing from those 
shale gas activities and the downstream uses of it. But that 
game-changing development could be impacted severely if 
regulatory barriers minimize the ability to capitalize on the 
opportunity.
    Now, ACC has analyzed the impact of regulatory burdens 
across eight major regulatory programs at EPA and at other 
agencies. That suite of regulations alone could impose a 
cumulative burden on our industry of over $15 billion between 
2011 and 2020, with undiscounted annualized costs as high as 
$2.7 billion a year in the out-years.
    Now, we are not saying that those rules, collectively or 
individually, would eliminate any potential jobs-creating 
investment. But we are saying that those costs, those burdens, 
are very relevant to the market decisions about where and when 
investments are made. So the compounding effect of those 
compliance costs diminish the resources available to make 
meaningful long-term investments that create jobs, promote 
innovation, and solidify our competitive position.
    The Federal regulatory process and analysis of regulations 
can be improved. We would like to see OMB and the individual 
agencies update their respective economic impact analysis 
guidance to require cumulative impact of multiple regulatory 
actions. We would like to see agencies identify and catalogue 
the sectors impacted by a new regulation and even extend that 
approach into the paperwork burden.
    Agencies should seek impact from the affected regulated 
community before developing a proposed regulation. It goes to 
the win-win that is possible from an early engagement, so that 
the public, the government, and the regulated community all 
benefit.
    We would also like to see Federal agencies consider the 
regulatory-induced employment changes as either a cost or a 
benefit in their assessment and not consider them some indirect 
cost that is not routinely assessed.
    Mr. Chairman, CCC supports the efforts to ensure that 
cumulative impact of Federal regulatory programs is considered 
as new regulatory requirements are considered.
    And I will just leave you with one final thought. If our 
regulatory agencies are capable of assessing the cumulative 
benefit of their regulatory programs, surely they are capable 
of assessing the cumulative burden.
    Thank you.
    [The prepared statement of Mr. Walls follows:]

    [GRAPHIC] [TIFF OMITTED] T8363.032
    
    [GRAPHIC] [TIFF OMITTED] T8363.033
    
    [GRAPHIC] [TIFF OMITTED] T8363.034
    
    [GRAPHIC] [TIFF OMITTED] T8363.035
    
    [GRAPHIC] [TIFF OMITTED] T8363.036
    
    [GRAPHIC] [TIFF OMITTED] T8363.037
    
    [GRAPHIC] [TIFF OMITTED] T8363.038
    
    [GRAPHIC] [TIFF OMITTED] T8363.039
    
    [GRAPHIC] [TIFF OMITTED] T8363.040
    
    [GRAPHIC] [TIFF OMITTED] T8363.041
    
    [GRAPHIC] [TIFF OMITTED] T8363.042
    
    [GRAPHIC] [TIFF OMITTED] T8363.043
    
    [GRAPHIC] [TIFF OMITTED] T8363.044
    
    [GRAPHIC] [TIFF OMITTED] T8363.045
    
    [GRAPHIC] [TIFF OMITTED] T8363.046
    
    [GRAPHIC] [TIFF OMITTED] T8363.047
    
    [GRAPHIC] [TIFF OMITTED] T8363.048
    
    Mr. Jordan. Thank you. Great point.
    Mr. Kamnikar.

                 STATEMENT OF MICHAEL KAMNIKAR

    Mr. Kamnikar. Thank you, Chairman Jordan, ranking members, 
and members of the subcommittee. Thanks for the opportunity to 
testify today.
    I am Mike Kamnikar of the Ellwood Group, and our company 
produces specialty steel for other forgers and open- and 
closed-die forgeries. I am also the incoming president of the 
Forging Industry Association, with operations from member 
companies in 38 States.
    The modern forging process is capital-intensive, and most 
forging companies are small businesses. Forging is one of 
oldest known metal-working processes, where metal is pressed or 
pounded or squeezed under great pressure to make high-
performance parts. In a nutshell, nothing that moves on land or 
in the air or on the sea can move without forgings.
    Mr. Chairman, U.S. manufacturers need a regulatory system 
that works. Appropriate regulations that improve health, 
safety, and the environment are a necessary part of doing 
business in the United States. However, when the regulatory 
process produces new regulations that do not provide additional 
benefits for the attendant costs and the regulatory community 
has little to no opportunity to participate in the process, the 
system is broke.
    FIA believes there are two overall problems with the 
regulatory process. First, there is a lack of understanding of 
the manufacturing supply chain and effects of regulations on 
that supply chain. You cannot build a wind turbine with wind 
energy. Said another way, you cannot regulate, say, the power 
generation or automotive industry and not have an effect on the 
suppliers in that supply chain.
    Second, there is a lack of transparency and sufficient 
stakeholder involvement in the regulatory process. When 
agencies bypass the Administrative Procedures Act or allow only 
brief public comment periods on complex, technical regulatory 
changes, we get ill-conceived regulations with unintended or 
unexpected consequences, and we undermine the integrity and the 
public's confidence in the rulemaking process.
    Many FIA members are small and rely on the FIA to assess 
the potential impact of our government action on their 
operations and to weigh in on their action on our behalf. But 
the FIA does not have technical experts on all subjects at all 
times, so we need the time to consult with member companies of 
all sizes on proposed government regulation, including 
determining when specialized expertise may be needed.
    I would like to highlight three examples of current and 
proposed regulations from my written testimony.
    The first example involves EPA's regulation of greenhouse 
gas emissions under the Clean Air Act. Most forging work is 
done at 2,300 degrees Fahrenheit, and subsequent heat treatment 
is done at temperatures up to 1,900 degrees F and using natural 
gas, electric, or induction furnaces. There are no alternative 
technologies available.
    EPA's decision to start regulating greenhouse gas emissions 
with large stationary sources means forgers will only have to 
worry about the potential effect of these regulations on their 
suppliers. Our company makes steel for the forgers, and we make 
forgings ourselves.
    So how much will our electricity costs rise, and what will 
be the effect on other raw materials? When suppliers are 
regulated, we are very concerned that we will be pushed into a 
regulatory system merely because we use natural gas or make 
critical components.
    The second example involves an EPA proposal for metal-
working facilities to be considered in the development of the 
financial responsibility requirements under the Superfund law. 
The proposal also required that the entire metal-working 
industry be examined to determine if they should be subject to 
these requirements.
    These types of financial assurance mechanisms for potential 
Superfund liability can be very expensive and extremely 
difficult to obtain for most metal-working companies, which are 
small- and medium-size and pose little risk, and we also carry 
insurance.
    Finally, I would be remiss if I didn't mention the forging 
industry's concern with OSHA's recent proposal to reinterpret 
the definition of ``feasible'' as it related to engineering and 
administrative controls to reduce overall noise in the 
workplace. Fortunately, as we know, that was withdrawn.
    Last, it is critically important that we regulate only that 
which requires regulation and only after a thorough vetting of 
the potential benefits, impacts, and costs to that regulation.
    Thank you.
    [The prepared statement of Mr. Kamnikar follows:]

    [GRAPHIC] [TIFF OMITTED] T8363.049
    
    [GRAPHIC] [TIFF OMITTED] T8363.050
    
    [GRAPHIC] [TIFF OMITTED] T8363.051
    
    [GRAPHIC] [TIFF OMITTED] T8363.052
    
    [GRAPHIC] [TIFF OMITTED] T8363.053
    
    [GRAPHIC] [TIFF OMITTED] T8363.054
    
    [GRAPHIC] [TIFF OMITTED] T8363.055
    
    [GRAPHIC] [TIFF OMITTED] T8363.056
    
    Mr. Jordan. Thank you, Mr. Kamnikar. We appreciate that.
    We are also pleased to be joined by the chairman of the 
full committee, Mr. Issa. Pleasure having you with us today.
    Mr. Schimmel.

            STATEMENT OF BERNARD ``TERRY'' SCHIMMEL

    Mr. Schimmel. Good morning, Chairman Jordan, Ranking Member 
Kucinich, and subcommittee members. Thank you for the privilege 
of testifying about the cumulative impact of regulation on a 
small, essentially U.S. industry, the clay-brick industry.
    My name is Terry Schimmel, and I am vice president of 
technical services at Boral Bricks. Boral is one of the largest 
brick manufacturers, with 22 manufacturing plants and 55 
distribution centers across 11 States. I have been in the brick 
business for 39 years, and my responsibilities include 
oversight of emission control equipment for Boral's U.S. plants 
in compliance with environmental, health, and safety 
regulations.
    Boral's energy-efficient brick kilns have reduced energy 
usage 15 percent over the past 5 years. It is only one example 
of our commitment to environmental stewardship. We take these 
steps voluntarily, without government mandates, but we are 
concerned about future viability, given the tremendous hit the 
industry has taken and the rising number of regulations.
    At full production, Boral employs approximately 2,000 
Americans. Today, nearly 1,100 of Boral's U.S. jobs, or 55 
percent, have been temporarily or permanently lost due to the 
construction recession. According to the most recent census, 
brick production nationwide has dropped 66 percent since 2005, 
reaching the lowest level in 3 decades. Approximately 9,000 
direct brick manufacturing jobs and 86,000 indirect brick jobs 
have been lost since 2006.
    Brick industry business is only very slowly beginning to 
pick up, but there is no end to the escalation of the cost of 
doing business due to the regulations that derive no 
commensurate benefit to the environment, health, and safety. We 
believe responsible, reasonable regulations can be developed to 
protect both environmental and health, but the number of 
rulemakings in the pipeline and their anticipated mandates 
jeopardize brick jobs and our recovery.
    Our greatest concern: EPA is currently redeveloping a 
Maximum Achievable Control Technology rule for clay brick and 
tile. The key word is ``redeveloping,'' as the industry 
recently spent more than $100 million in capital costs alone to 
come in compliance with the original act rule that was 
finalized in 2003. Boral spent more than $12 million to install 
mandated control devices to meet the 2006 compliance date.
    While the U.S. district court vacated the original MACT 
rule in 2007, more than a year after the compliance date, most 
States continue to enforce MACT limits as part of existing 
Title V permits. The result is that the brick industry has 
spent approximately $170 million in cumulative ongoing 
compliance costs for these controls since 2002, due to the now-
vacated MACT.
    EPA now is using the reduced emission levels achieved by 
kilns with control devices installed for the vacated rule to 
calculate an even more stringent baseline for all kilns. The 
technology to meet the final standard may not even exist if EPA 
cherry-picks data to establish a standard that no real-world 
brick kiln has actually achieved. The EPA's cost estimate of 
the revised MACT is approximately $188 million per year, a 
staggering 20 percent cost-of-sales ratio for one rule.
    Congress provided flexibility in the Clean Air Act to allow 
reasonable rules. As Borel and the brick industry continue to 
work with the EPA, we appreciate the Agency's willingness to 
discuss a health-based compliance approach. We are hopeful it 
could ensure that controls are installed when needed to protect 
the environment, rather than mandated controls that are 
unnecessary due to an imperfect data base.
    EPA could use its discretion under the Clean Air Act to 
find alternative solutions to avoid unnecessary job-loss and 
expenditures that provide little to no benefit to the 
environment.
    Our second big concern is OSHA's proposed crystalline 
silica rule that is expected to substantially decrease the 
permissible exposure limit across general industry.
    Worker safety is vitally important to Borel. However, 
decades of scientific studies demonstrate that the risk from 
exposure to silica from quartz in brick clays and shale are not 
the same as risks from quartz used in other industrial 
settings. Silicosis caused by crystalline silica is essentially 
nonexistent in brick manufacturing workers. But because OSHA 
undertook the peer-reviewed process without providing an 
opportunity for industry input, this brick-specific evidence 
may not be reflected in the proposed rule.
    The current PEL protects brick workers, and any reduction 
for the brick manufacturing industry would impose cost burdens 
for non-demonstrated health benefits. These two issues alone 
could overwhelm the industry; taken together with EPA's 
greenhouse gas regulations, however, that could encompass 
numerous brick kilns in the coming years and its tightening of 
National Ambient Air Quality Standards, the burden is 
unsustainable.
    Given the important progress the Federal agencies have 
helped guide to protect the environment and safety, future 
steps should independently demonstrate reasonable costs for 
potential improvements. Congressional oversight should ensure 
maximum benefit per dollar invested for the regulatory 
compliance to prevent small, historical U.S. industries, like 
brick, from being regulated out of existence.
    Thank you, and I would be happy to answer any questions.
    [The prepared statement of Mr. Schimmel follows:]

    [GRAPHIC] [TIFF OMITTED] T8363.057
    
    [GRAPHIC] [TIFF OMITTED] T8363.058
    
    [GRAPHIC] [TIFF OMITTED] T8363.059
    
    [GRAPHIC] [TIFF OMITTED] T8363.060
    
    [GRAPHIC] [TIFF OMITTED] T8363.061
    
    Mr. Jordan. Thank you.
    Mr. Foerter.

                 STATEMENT OF DAVID C. FOERTER

    Mr. Foerter. Thank you, Mr. Chairman, members of the 
subcommittee, for the invitation to share another industry 
perspective in the hearing on how regulations and requirements 
create real jobs in the American economy. I am David Foerter, 
the executive director of the Institute of Clean Air Companies 
[ICAC].
    Today we would like to briefly highlight the fact that 
investments and efforts to clean the air we breathe creates 
real jobs for real people in the U.S. economy, and it saves 
lives. In these brief comments, I hope to impart a few 
realities from the perspective of a mature manufacturing 
industry.
    For more than 50 years, the Institute has been the 
nonprofit national trade association of companies working to 
equip stationary sources--generally power and large industrial 
facilities--with air pollution control and measurement 
technologies. The Institute's members count to about 100 
companies, leading manufacturers in both measurement and 
control. We believe, and history affirms, that equipping these 
sources ensures industrial progress while cleaning the air we 
breathe.
    Here are a few realities I would like to highlight today. 
We know that investments in clean air technologies result in 
substantial returns in avoided health costs for the American 
public. We know that these same investments are plowed back 
into the U.S. economy as real jobs in my industry and many 
related industries. We know that many of the business interests 
testifying at these hearings also provide materials that are 
used in the manufacture of equipment in the air pollution 
control industry, and, as such, there is an innate need and 
desire to work toward sustainable solutions.
    I find that these realities can be distilled down into a 
rather simple formula: The Clean Air Act spurs investments 
which creates jobs, improved health, and a modernized and more 
sustainable fleet. The formula has worked well for 40 years, 
and this is something we need now more than ever.
    The principal function of clean air requirements is to 
clean the air we breathe. We, therefore, are heartened that a 
renewed interest in jobs has reintroduced one of the most 
amazing aspects of air pollution and control technologies: 
Simply, for every dollar spent, as much as $40 comes back as 
avoided health costs. This fact has withstood the test of time, 
and it is a testimonial to the value of the Clean Air Act, the 
technology innovations in our industry, and the combined 
efforts of industries to clean the air while ensuring 
industrial progress.
    It is important not to lose focus that the safeguards are 
there to create cleaner air for all of us, helping to save 
lives and avoid or reduce illness. Fortunately, these 
safeguards are a win-win. To comply with them, companies will 
need to undertake construction projects. That means jobs in 
areas that are currently facing challenging times.
    The clean air investments spurred by regulations and 
requirements create real jobs while satisfying their principal 
goal of healthy air. Most air pollution equipment for large 
sources is constructed or fabricated onsite and requires high 
levels of engineering and design, labor, and depends on 
component equipment and materials. This means jobs for skilled 
craft labor, such as boilermakers, and new upstream and 
downstream employment and economic benefits for a variety of 
industries and communities where they are located.
    For example, building this equipment requires construction 
materials such as steel plate, alloy steel, fabricated steel 
components, structural steel, and concrete. In addition, these 
projects require engineered equipment and specialty materials 
such as slurry pumps, fans, motors, and catalysts. And to 
sustain operation of these systems, reagents such as urea, 
anomia, limestone, Trona, and activated carbon are needed, as 
well as other consumables such as fabric filters used for 
particulate removal.
    While the focus of installing controls is on our industry, 
we rely on many other industries and employers to get the job 
done. And that is just what we have been doing with tremendous 
success for several decades: getting the job done where and 
when needed most.
    As an industry, ICAC offers constructive comment on almost 
every major requirement that is out there. And these comments 
are part of the public record, and they demonstrate what we 
believe is constructive insight on how industries can make 
changes and still serve industrial progress.
    A similar story exists for industrial sources, where we 
were looking at: The Clean Air Act spurs investments which 
create jobs, improved health, and a modernized fleet. We are at 
a juncture where necessary upgrades are long overdue, and an 
experienced work force is fully available to complete the 
effort.
    In addition, the U.S. Environmental Protection Agency 
finalized a rule for the industrial boilermaker sector that is 
significantly less stringent and at a lower cost than was 
proposed last year. This is something we need now to get 
America back on the job and protect public health.
    The reality is that my industry works constructively to 
help other industries comply with regulatory requirements.We 
are highly competitive, and we are looking at many technology 
solutions, not just one, often offering a suite of solutions.
    In closing, President Obama's Executive order on January 
18th characterized a regulatory system that ``protects public 
health, welfare, safety, and our environment while promoting 
economic growth, innovation, competitiveness, and job 
creation.'' I hope that I have been clear that is shared vision 
within my industry, where, for more than 50 years, the members 
have existed, prospered, innovated, and made a significant 
contribution to the U.S. economy.
    I look forward to continued efforts that create real jobs, 
for real people, and real health benefits. Thank you.
    [The prepared statement of Mr. Foerter follows:]

    [GRAPHIC] [TIFF OMITTED] T8363.062
    
    [GRAPHIC] [TIFF OMITTED] T8363.063
    
    [GRAPHIC] [TIFF OMITTED] T8363.064
    
    [GRAPHIC] [TIFF OMITTED] T8363.065
    
    Mr. Jordan. Thank you, Mr. Foerter.
    If we all stick to our 5 minutes, I think we can all get a 
round of questions in before the joint session.
    Mr. Kamnikar, you mentioned in your testimony many of your 
members of your association are small-business owners. In our 
previous full committee hearing, we had a number of small-
business owners there. And one of our, I believe, freshman 
Members asked what I thought was just the most compelling 
question. They asked each of those small-business owners, if 
you knew then what you know now, would you have started? And it 
was amazing to me that every single witness that day said they 
would not have started their business if they knew then what 
they are faced with now on the regulatory front.
    And so, tell me, was that an anomaly or would that be 
consistent with the members in your respective associations?
    And we will start with Mr. Kamnikar.
    Mr. Kamnikar. Yeah, I would say that is an accurate 
assessment. Most of our small member companies are family 
owned, third-, fourth-generation, so when the businesses got 
established, it was quite different than it is today.
    Mr. Jordan. Uh-huh.
    Ms. Harman.
    Ms. Harman. Many of our businesses, too, our small 
businesses. We also represent large businesses who have----
    Mr. Jordan. Sure. Sure.
    Ms. Harman [continuing]. Been in business for over 100 
years.
    I think the most striking thing that they would tell you 
that is most difficult is that they begin a project or a 
proposal under one set of rules only to have those rules later 
changed.
    Boiler MACT is an excellent example, where they invested 
millions of dollars to comply with the 2004 rule, and complied 
with that by the deadline of 2007, only to find now that they 
have to invest another $3 billion, you know, a mere few years 
later, 4 years later. It is not sustainable.
    And they would tell you that it has a real impact on their 
capital decisions, whether to invest that capital here, invest 
it overseas, or not invest at all. And the not investing it at 
all is probably the biggest economic and environmental problem 
that we face today.
    Mr. Jordan. Before we go to Mr. Papadopoulos, let me--you 
made me think of a--we have this Web site, americanjobcreators, 
and we have several responses from our State. The ranking 
member and I have the privilege of representing folks in Ohio. 
And one comes to us from a gentleman from Mina, Ohio, close to 
Mr. Kucinich's district. He says, ``A wise man once told me 
that the human mind can accept good news, can accommodate bad 
news, but can never get comfortable with uncertainty.'' And 
that is a huge impediment.
    And I think in your testimony, Mr. Papadopoulos, you talked 
about Congress reclaiming its responsibility over this area. So 
talk to me a little bit more about the uncertainty; and the 
first question I asked, do your members in your association, 
would they echo what others have said that, if they knew then 
what they know now, they wouldn't have started their business?
    Mr. Papadopoulos. Congressman, first let me start by 
talking about myself, because over the last 20 years I have 
encouraged and sold to my own parent company to invest in the 
United States, and it has been $1 billion to $2 billion. And I 
find it very difficult today to make that argument, you know.
    You know, I heard Mr. Foerter talk about win-win, but win-
win for who? Win-win for the companies selling this equipment? 
Yes. This, you know, control equipment. Win-win for the 
environmental activists? What about a win-win for the companies 
that have to gain a return on investment? I don't see that in 
today's U.S. environment.
    And it saddens me as an American citizen, more than 
anything else. I see other countries getting ahead of us, I see 
we have world-class companies here in the United States. We 
have the best environment here in the United States; we breathe 
the best air. And yet we are pushing our own world-class 
companies to the brink. You know, we are not going to be 
breathing our own air, we are going to be breathing other 
countries' air, the way we are going, without the jobs, without 
the investment.
    That is, to me, the sad big picture. And I have difficulty 
convincing, in today's world, today's environment, why the 
United States is the best place to keep pouring money, with 
this regulatory, you know, situation.
    Mr. Jordan. Mr. Walls.
    Mr. Walls. Mr. Chairman, the member companies of the 
American Chemistry Council operate in a globally, very 
intensely competitive industry. It is that regulatory 
uncertainty that is the primary determinant in whether or not 
they are making investments here or elsewhere around the world.
    I will just go back to my example on shale gas.
    Mr. Jordan. Shale gas, right.
    Mr. Walls. That, you know, again, is the type of game-
changing development here that is going make us more 
competitive. We have folks in our industry saying that this 
development alone could put a whole new lease on life in this 
industry. We want to capitalize on that opportunity and reduce 
the uncertainties that are out there.
    Mr. Jordan. Great.
    Mr. Schimmel, I apologize, you have 15 seconds because we 
have to stick to the 5 minutes so everyone gets in.
    Mr. Schimmel. I guess in answer to your question, Boral, of 
course, is internationally traded, and we have a responsibility 
to return shareholder value. And I would think that, were they 
to make additional acquisitions in the United States, they 
would have to think twice about the regulatory burden imposed 
by these rules.
    Mr. Jordan. Yeah.
    I recognize the ranking member, Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    I was listening to Ms. Harman's testimony on how the 
industry has to consider the global competitive environment. 
And I had a visit a couple weeks ago from the Pulp and 
Paperworkers' Resource Council, and they provided me with a lot 
of information that would be interesting for this committee. 
And I am going to submit it. This is a chart here that shows 
the closed saw mills and paper mills, 1989 to 2003, most of 
them after 1993, I might mention; and also shows the closed saw 
mills and paper mills, 2004 to 2007.
    And as I look at all these closures, it is pretty stunning. 
Then they showed me a map of how many have gone to other 
countries, notably China. OK?
    Now, it is a very interesting point here when I am 
listening to this discussion, because I think you are 
mentioning one part of the equation but it is only, frankly, a 
small part of the equation, because we are looking at trade 
agreements that were absent workers' rights--the right to 
organize, the right to collective bargaining, the right to 
strike, right to decent wages and benefits--human rights--
prohibitions on child labor, slave labor, prison labor--and 
environmental quality principles, protection of air and water.
    Those weren't in our trade agreements in NAFTA. And we look 
at the U.S. paper mill shutdowns; we see how many shutdowns 
occurred right after and NAFTA. And then after China trade, the 
shutdowns skyrocketed.
    Now, I am going to submit this for the record because I 
think that----
    Ms. Buerkle [presiding]. No objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8363.066
    
    [GRAPHIC] [TIFF OMITTED] T8363.067
    
    [GRAPHIC] [TIFF OMITTED] T8363.068
    
    Mr. Kucinich. Thank you.
    I think that we have to consider the global competitive 
environment, and we certainly don't want our air quality 
standards or our labor standards to be reduced to a point where 
we become like countries that are less democratic. Because in 
order to have a political democracy, you have to have an 
economic democracy.
    I also want to put into the record a news story out of the 
Guardian, U.K., which shows that China--China--this is last 
year--ordered a polluting and unsafe factory shut down, 
including, I might add, in China they shut down some of their 
older paper mills, 279 to be exact, because the Premier of 
China was concerned about making sure the energy efficiency of 
all of his industries could be increased. So China gets the 
connection now between upgrading and energy efficiency, and 
that it also means paying attention to the environment.
    So, for the record.
    Ms. Buerkle. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8363.069
    
    [GRAPHIC] [TIFF OMITTED] T8363.070
    
    Mr. Kucinich. Now, Mr. Foerter, I wanted to ask you, in 
your written testimony you state that each dollar spent on air 
pollution control technologies produces $40 in health savings. 
Can you explain how that occurs?
    Mr. Foerter. The types of pollutants that we are talking 
about in many cases are going to be sulfur dioxide, oxides of 
nitrogen. Sulfur dioxide is--we are looking at an acid rain 
program. That is the big pollutant in that group. The oxides of 
nitrogen, that is frozen and transported into ozone, which gets 
into the lungs.
    The others are these hazardous air pollutants, which are a 
lot of metals that come from that. So even, I think, looking at 
the most recent industrial boiler MACT, those numbers come out 
to be very close to that $40.
    Mr. Kucinich. Well, you are telling us that EPA regulations 
actually create jobs and support industry. The figures I have 
seen from OMB, from the EPA, and from numerous private studies 
support your claims that environmental protections like the 
Clean Air Act have a positive impact on the economy.
    In fact, a 2008 study from the Journal of Environmental 
Management entitled, ``Environmental Protection, the Economy, 
and Jobs: A National and Regional Analysis,'' states that, 
``Contrary to general public perception and public policy 
understanding, since the late 1960's protection of the 
environment has grown rapidly, to become a major sales-
generating, profit-making, job-creating industry.''
    Mr. Foerter, is that assessment consistent with what you 
have observed?
    Mr. Foerter. That is correct. The costs of controls are 
much less. In fact, when we actually do the implementation of 
the rules, they often are much less than they are even 
projected in the EPA rulemakings.
    Mr. Kucinich. Well, the authors of that 2008 study state 
that environmental protection, as an industry, generated $300 
billion per year in sales in 2003, created 5 million jobs.
    The authors went on to state, ``Most of the 5 million jobs 
created are standard jobs for accountants, engineers, computer 
analysts, clerks, factory workers. And the classic 
environmental jobs--environmental engineers, ecologists, etc.--
constitute only a small portion of the jobs created. Most of 
the persons employed in these jobs created may not even realize 
that they owe their livelihood to protecting the environment.''
    Mr. Foerter, that sounds good, and it sounds like good, 
well-paying, middle-class jobs. Are these the kind of jobs that 
you have seen created in the industry?
    Mr. Foerter. These are. And we are talking about companies 
that actually do the IT work, the financial investments. I 
mean, we do bidding on the projects, as well as going into the 
engineering design, which are some of the ones I talked about 
in my testimony.
    Mr. Kucinich. Thank you, sir.
    Thank you.
    Ms. Buerkle. Thank you, Mr. Kucinich.
    I guess I will yield myself 5 minutes.
    Good morning to all of you, and welcome.
    First, I want to thank Mr. Chairman for holding this 
particularly timely meeting.
    As we make jobs and the economy a priority here in this 
Congress, what is becoming more and more apparent to us--and I 
am sure you all have recognized this for a long time--is the 
crushing regulations that you all face. And it makes doing 
business in this country extremely difficult. We would like to 
change that. Our chairman, Mr. Issa, has charged us with going 
out and finding out the ways that these regulations are 
standing in the way of success. And so that is what we are 
doing here this morning.
    I think we can all agree that all of these regulations 
really represent a hidden tax on businesses and the cost of 
doing business. And I would like to get into the cost of 
compliance in a few minutes.
    I think that we can agree, as was mentioned earlier, that 
the stimulus failed, because the government can't create jobs. 
And so, I want to thank all of you this morning for being the 
job creators in our country and for keeping our economy--you 
all are the ones that can get this economy back on track. So we 
need to work with you to figure out how we get the government 
out of your way.
    I also want to comment that, not only have I heard from 
businesses throughout the hearings that we have conducted, you 
hear from not-for-profits, you hear from schools that the costs 
of these regulations don't even make sense, and it just impairs 
and impedes their success.
    So I look forward to hearing from all of you this morning.
    I guess I want to go back to my colleague Mr. Kucinich's 
comments about the costs and the cost-benefit. I think I would 
like to hear from all of you, if you wouldn't mind. Can you 
just tell me, in each of your industries, if you can give me a 
figure for the cost of compliance, the cost of regulations 
within your various industries?
    Ms. Harman.
    Ms. Harman. In multiple billions of dollars, between the 
capital costs plus the operating and maintenance costs that are 
ongoing. It is not just the cost of initially complying with 
the regulation; it is the day-in, day-out costs.
    It is also the cost of projects that can't go forward 
because they can't make it through the regulatory red tape. A 
lot of these projects are energy efficiency improvement 
projects. Some of them are mill modernization projects. They 
are projects that will secure the future of the mill so that 
our mills can actually buy the technology that Mr. Foerter is 
talking about. But if those mills close, they can't buy that 
technology and they can't create those jobs.
    Ms. Buerkle. Thank you.
    Mr. Papadopoulos.
    Mr. Papadopoulos. Let me just say, from the international 
experience I have, that today it costs in the United States in 
our industry twice as much to build capacity than it does, not 
in China--I am not using that as a role model--but even in the 
EU. We have gone to such an extreme in that count.
    So, you know, I know we don't want to go back to where we 
were 30 years ago; that we know. But I think we have reached 
the point of diminishing returns. We have reached the point 
where we do have a healthy environment. We do have a world-
class industry. And we can't accept that. We want to just keep 
pushing ourselves when others need to catch up with us, 
because, as I mentioned before, you know, we are going to be 
breathing other people's emittants. It is not going to be our 
own.
    Ms. Buerkle. Thank you.
    Mr. Papadopoulos. And that is something that, you know, 
should occupy us.
    Ms. Buerkle. Mr. Walls.
    Mr. Walls. Our situation is similar to that of the forest 
and paper industry, not only in terms of the billions of 
dollars our industry spends in direct compliance costs, but we 
also experience a number of indirect costs as a result of those 
regulatory requirements.
    One of those indirect costs, frankly, is in jobs. Our 
industry now employs about 780,000 Americans. That is down from 
a high of almost a million. In the mid-2000's, when natural gas 
prices spiked over a 5-year period, we lost 140,000 jobs. Year 
on year, between February 2010 to February 2011, we lost 
another 15,000 jobs. I am not saying that the regulations 
themselves are the sole cause of those jobs being lost, but 
they are one of the impacts we are seeing from the additional 
regulatory burden being proposed.
    Boiler MACT is an excellent example. In the original 
proposal that came from EPA, they would establish emissions 
limitations that could not be met by the existing technology. 
If the technology isn't there to meet the emission limitations, 
what job is going to be created to create the equipment to then 
meet the standard?
    Ms. Buerkle. Thank you.
    Mr. Kamnikar.
    Mr. Kamnikar. I have made six trips to China and three 
trips to India in the last 5 years to benchmark against 
industries that we compete with. The point is--and Congressman 
Kucinich made a long list of achievements that all of us, 
across the table, have achieved in terms of safety and in the 
environment. And if we just put a moratorium on where we are 
today, it would take 20 years, if ever, for the industries in 
China and India to catch up.
    Ms. Buerkle. Thank you.
    I apologize, Mr. Schimmel. We are out of time.
    I yield back to the chairman.
    Mr. Jordan [presiding]. Well, we will recognize the ranking 
member.
    Mr. Cummings. Thank you very much.
    I want to thank all of you for your outstanding testimony.
    As I sat here, I could not help but think and go back to 
something that the chairman of the subcommittee said when he 
was talking about that we had some witnesses--and, Mr. 
Chairman, forgive me, it may have been another hearing that I 
was in. I think we are talking about the same hearing. And when 
people were asked, would they start their businesses again, 
there was one person--the reason why I remember this is because 
he was the one person who said, ``You know what? Although I'm 
concerned about regulations, I would start my business again 
because I'm so honored to have the opportunities that I have to 
conduct a business in the United States of America.'' I will 
never forget that as long as I live.
    You know, as I hear the complaints and concerns, I am 
just--I guess maybe I come from a different world. You know, in 
Baltimore, if you look at the obituary page, you know, most 
people, as in most places, most people die from one or two 
things. The first thing I read in the morning is the obituary 
page. It is either cancer or heart disease.
    And there are some communities in Baltimore, where I come 
from, a particular area called Fairfield, where the chemical 
industry had a lot of plants and they were pumping out all 
kinds of stuff years ago. And there came a point in time when 
they pretty much said that, after years and years of people 
living in that environment, said, you know, nobody should be 
living in this environment. And a lot of those people found 
themselves getting cancer and suffering greatly.
    And I am not trying to paint these industries in a negative 
way. What I am trying to say is that we must always have 
balance. And I appreciate that each and every one of you, I 
think, each and every one of you talked about the fact that 
there is definitely--regulations are important for the safety, 
health, and welfare of our people. And so often I think we get 
confused, thinking that, on this side of the aisle, all we want 
is regulate, regulate, regulate. No, that is not what we are 
saying. We are saying that we want to get rid of regulations 
that make no sense. And I think all of you have made cases for 
some of those regulations that need to go. But, at the same 
time, we want to make sure that there is balance. When we get 
away from balance, then we have a problem in this Nation. When 
we get away from balance in our family decisions, we have 
problems. And that is the key.
    And one of you--well, several of you talked about 
uncertainty. And, certainly, in the United States of America, 
in a democracy, you are going to have uncertainty no matter how 
you look at it. When you change administrations, you are going 
to have uncertainty. A lot of the regulations that you are 
talking about, that you are complaining about came under a 
Republican administration; some came under Democrat. Folks 
changed because that is part of the price that we pay in living 
in a democracy: uncertainty, changes of policy, and what have 
you.
    And so, I think we have to--when we look at all of this, we 
have to ask the question--and I think Mr. Kucinich hit on it 
pretty hard. Somebody said a moment ago that it would take them 
20 years--I think it was--who said that?--20 years to catch up 
with us. I think it was Mr. Kamnikar. Yeah, that is true, but 
we are better than that. This is America. This is the United 
States of America. We are better than that.
    And I have seen over and over again, I think we can--when 
we don't have the balance that I am talking about, we can get 
caught up in a culture of mediocrity. And while we think we are 
ahead of the game, if we get caught up in that culture of 
mediocrity long enough we will be behind the game.
    We want our people to have good health. We want people to 
be able to have safe jobs. I want your son, who may want to do 
like I did and have a tough job at Bethlehem Steel, to be able 
to go there, and when he blows his nose, he doesn't blow out 
soot. I want that. I want that desperately.
    At the same time, I want you all to make the money so that 
he can have a job. And so that is where the balance comes from. 
There is nobody--we want job-creating opportunities. We want 
you all to be successful. But, at the same time, we want to 
safeguard our citizens.
    Unfortunately, there are a lot of people who don't even 
know the environments that they are walking into. And so we 
have to speak for them. If we don't speak for them, nobody else 
will. Somebody has to say, wait a minute, let's make sure that 
these regulations are fair.
    And so, I think the President is right. I think he hit the 
right balance. I think there are Members on both sides of the 
aisle who have said the President has hit the right balance. 
Now what we have to do is we have to go through these 
regulations, we have to look at them carefully, make sure that 
industry is able to thrive and survive.
    But let's keep one thing in mind: We are so fortunate to 
have companies operating in this country. It is an honor, as 
the gentleman said. I didn't say it; he said it. It is an honor 
to have the opportunity that we have here. And so, I don't want 
us to take that for granted.
    And, with that, Mr. Chairman, I yield back.
    Ms. Buerkle [presiding]. Thank you----
    Mr. Cummings. I'm sorry--Madam Chairlady.
    Ms. Buerkle. Thank you.
    I would like to now recognize the gentleman from 
Pennsylvania, Mr. Mike Kelly.
    Mr. Kelly. Thank you, ma'am.
    I am going to yield to Mr. Issa.
    Mr. Issa. I thank the gentleman. I am a little surprised.
    I will be brief. And I apologize; we have two hearings of 
this committee going on, so I am going back and forth.
    Mr. Kamnikar, I believe that when you were talking about 
the demands to the forging industry, in a sense, isn't the 
greatest demand, by far, the greatest challenge, simply the 
energy? I mean, when you get past capital costs, doesn't it 
really boil down to, no matter how effectively you use energy, 
if your competitors in other countries can get their energy 
source significantly less expensively, you will be outgunned in 
the international market? Isn't that true?
    Mr. Kamnikar. It is quite clear. And regulating greenhouse 
gases in the way that has been outlined will effectively put 
many of our suppliers and many forgers out of business, because 
the energy, either electricity or the natural gas, will not--it 
will become cost-prohibitive throughout the supply chain.
    Mr. Issa. And, Mr. Foerter, now, I know there is a whole 
industry of green jobs and green energy and so on. But isn't it 
true today that, if you use green energy, let's just say all of 
it, by definition, on an unsubsidized basis, you are paying 
dramatically more for this energy? There is no, ``alternative 
energy'' industry that can provide, on an unsubsidized basis, 
competition with the base fuels of coal, oil, and natural gas? 
Isn't that true?
    Mr. Foerter. Well, I would be unqualified to talk about 
renewables, like solar and wind. But what we do is we clean up 
mostly the fossil fuels. So, basically, we keep coal operating, 
keep oil, natural gas, as it comes into the mix.
    Mr. Issa. Right. And even after you clean up coal, it is 
still in the neighborhood of 7 cents a kilowatt, dramatically 
less than any of the, if you will, new renewable fuels.
    Mr. Foerter. Yeah, we have actually seen, while these air 
pollution control requirements have gone in place for coal-
fired utilities, the cost of electricity has actually gone 
down.
    Mr. Issa. So, for Mr. Schimmel, it is interesting that you 
are sort of involved in the brick-making business, because I 
was in Hanoi some time back and I got to observe how they make 
bricks. Now, they are totally supportive of Kyoto and all the 
other protocols. They take pure, just plain coal and they burn 
it, high-sulfur coal, and the tops of every leaf are black. 
Literally, you can see your way back 1,000 years into how you 
would make bricks.
    When we look at the amount of BTUs you use, and, thus, the 
amount of carbon you put in, even if you were using a source 
fuel of coal, wouldn't it be true that you would probably use 
1/20th the fuel that is used in an open-hearth-type brick 
production?
    Mr. Schimmel. I would say that is probably approximately 
correct. I have been to Malaysia and seen some of the slope 
kills that you probably are referencing, where they burn waste 
wood.
    You know, traditionally, in the 1970's, the U.S. brick 
industry was around 4,000 BTUs a pound. Now we are down to 
about 1,200. And in Boral, at least, as well as some of our 
competitors, we use landfill gas, we use wood waste, natural 
gas, some coal.
    But, yes, the industry, as a whole, has changed its 
technology substantially over the years. And periodic kilns, 
although there are a few of them still in existence, most of 
them are automated, computer-controlled tunnel kilns that are 
highly efficient.
    Mr. Issa. So, in a sense, every time an American operation 
shuts down and most overseas locations, particularly in the 
developing world, take their place, you are going to have a 
larger carbon footprint, rather than a smaller carbon 
footprint. Isn't that what the industry has found?
    Mr. Schimmel. I think that is traditionally true. Some of 
the European technology, of course, is probably on par with 
where we are. But, certainly, if we go to China and some of 
those other less energy-savvy countries----
    Mr. Issa. Well, you know, it is funny you mention Europe, 
because we will be going to France to visit the nuclear 
reprocessing facility that allows France to have all its entire 
base load coming from nuclear with zero emissions, because they 
are willing to use a source of fuel that costs less than 6 
cents a kilowatt hour after all the costs of disposal. So, 
hopefully, that will be a lesson learned, is that we should 
copy the Europeans in at least one item--well, two if you count 
dark chocolate.
    Ms. Harman, the general health of the forest industry in 
North America is considered to be good. But if you take Canada 
out, how good is it? How good is the ability to get the source 
material and to work with the pulp in the United States versus 
Canada versus most of your competitor countries?
    Ms. Harman. Well, the U.S. forest-products industry is 
highly competitive. And we are competitive because we have made 
very difficult decisions, because we have right-sized our 
business. That means downsizing, unfortunately. EPA rules and 
regulations have been a contributing factor in that. Some of 
the high energy costs that affected the chemical industry have 
also affected us.
    An interesting comment that you raised earlier about 
renewable energy, I would offer to you that the forest-products 
industry is one place where, on an unsubsidized basis, we can 
produce renewable energy as a byproduct of our manufacturing 
process. And we can do it very cost-effectively. And, in fact, 
it is a large portion of our energy, which is why the biomass 
rules in the boiler MACT regulation so negatively affect our 
industry.
    Mr. Issa. Well, thank you. And I commend you for that work. 
And I think we are all well-aware that you have been an 
industry in which nothing goes to waste.
    I yield back.
    Ms. Buerkle. Thank you, Mr. Chairman.
    I would like to now yield 4 minutes to Chairman Issa.
    Mr. Issa. Which I will yield to the gentleman from 
Pennsylvania. Thank you.
    I owe you.
    Mr. Kelly. Well, I am going to thank the gentleman from 
California for yielding back. And, Madam Chairman, thank you, 
as we continue to do things the proper way.
    First of all, I want to thank all of you from being here. I 
come from the private industry also. And there is an old adage 
that is out there, and it goes something like this: ``Don't 
worry about the mule. Just load the wagon.'' And I think we are 
at a point where the mule is about ready to walk away from the 
harness himself.
    And it is really great that we are concerned about clean 
air and we are concerned about clean water and we are concerned 
about the health of our workers--and I would suggest this: That 
is not just one party's concern. All of us are concerned about 
that. It is the cumulative effect of all these regulations that 
keep building and building and building to where it is going to 
break.
    Now, I am somewhat of an athlete, not a great one, but one 
sport that always interested me was golf. And what interested 
me about golf is a guy like me, who is a lousy golfer, can beat 
a guy who is really good. It is called a handicap.
    Now, we have continued to handicap you--and now I am part 
of this government--to handicap you and handicap you and 
handicap you. So I think you are about ready to walk away from 
the harness.
    But, in particular--first of all, Mr. Kamnikar, thanks for 
being here. In the district, you know, we have so many people 
in the business, and I want to congratulate you on becoming the 
president of the organization.
    But the effect of these cumulative regulations, if you 
could just walk us through. Because a lot of us have never 
signed the front half of a check and have absolutely no idea of 
the unintended consequences of all these costs, if you could, 
just kind of walk us through, for an example, something like 
ITAR and how difficult it makes it for somebody who makes roll 
bearings to go through that type of regulation, and the cost 
involved.
    Because, at the end of the day, it is the cost that 
concerns me, and our ability to compete in the global market. 
We have handicapped ourselves to the point where we are 
forfeiting the ability to compete.
    If you could, sir.
    Ms. Buerkle. Excuse me. If I could just interrupt. The 
House rules are requiring that we adjourn this meeting. 
However, if you would like to take 30 seconds to answer Mr. 
Kelly's question, and then we will adjourn.
    Mr. Kamnikar. It is difficult to answer. I would simply say 
this, and I think this is true of everybody on the panel. We 
have done a lot to get to where we are today, and the 
uncertainty, the possibility of further regulation is what we 
are most concerned about.
    And I go back to my point about competing with the Chinese 
and Indians. It will take them a very long to get where we are 
today, but while they continue to operate, they have a very big 
advantage over us. We will take our chances against them, but 
let's not regulate us even more.
    Ms. Buerkle. Thank you.
    Again, I apologize for the time constraints this morning. I 
would like to thank all of our guests here for taking time out 
of your busy schedules to appear before us, give us your 
testimony.
    The meeting will stand adjourned.
    Thank you so much.
    [Whereupon, at 11:57 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
